IN THE

SUPREME COURT OF THE UNITED STATES

ALONSO SANCREZ OCHOA
Petitioner
V.

UNITED STATES OF AMERICA,
Respondent

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Fifth Circuit

MOTION FOR LEAVE T0 PROCEHD
IN FORMA PAUPEIRIS

COMESNOWPETITIONERALONSOSANclmzocHOAandrespectfully
moves this Honorable Court for leave to proceed in forma pauperis, in accordance
with the provisions of Title 28, United States Code, Section 1915, and Rule 39 of the

Rules of this Court.

ALONSO SANCREZ OCHOA sought leave to proceed in forma pauperis in
the court below.

ALONSOSANCIHZOCHOAwasgrantedleavetoproceedinformapauperis
in the Court below.

ThestatuteunderwhichALONSOSANCIHZOCHOAwasappointedcounsel
by the Northern District of Texas was the Criminal Justice Act of 1964,
18U.S.C.§3006A.**

Presented herewith is ALONSO SANCIHZ OCHOA'S Petition for Writ of
Certiorari to the Court of Appeals for the Fifth Circuit.
Respectfully submitted,

Date:

6205 Airport Freeway
Fort Worth, Texas 76117
(817) 831-0100

(817) 831 -0537 Facsimile

Email : bboone@flash.net
Texas State Bar No: 02626800

ATTORNEY FOR OCHOA

* *See Supreme Court Rule 39.1 :
"A party seeking to proceed z.#/orrmcl pczc/perz.s shall file a motion for leave to do so, together with

the party's notarized affidavit or declaration (in compliance with 28 U.S.C. §1746) in the form

prescribed by the Federal Rules of Appellate Procedure, Form 4. The motion shall state whether
leave to proceed I.7z /or77€cr pcz24perz.I was sought in any other court and, if so, whether leave was

glalutf3d. If the court below appoihied counsel f or an indigent party, no Off idavit or declaration is
required, but the motion shall cite the provision Of low under which counsel was appointed, or a
copy Of the order Of appointment shall be appended to the motion. " (a;rrl:phiasis aldded)

